RICHARD A. MORRIS
Direct Dial: (713) 960-6019
rmorris@rmgllp.com

5718 WESTHEIMER ROAD, SUITE 1200
HOUSTON, TEXAS 77057
PHONE: (713) 960-6000

▪

FAX: (713) 960-6025

www.rmgllp.com

June 1, 2021
BY ELECTRONIC FILING
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Houston Community College System v. Wilson, No. 20-804

Dear Mr. Harris:
On April 26, 2021, the Court granted certiorari in this case. We have conferred
with counsel for respondent, Michael B. Kimberly, and the parties jointly purpose
the following briefing schedule: Petitioner’s opening brief and the joint appendix
shall be due on July 14, 2021 and respondent’s brief shall be due on September 17,
2021. Under this schedule, petitioner’s reply brief would be due on October 17,
2021, but petitioner will plan to file its reply no later than October 15, 2021.
This schedule represents mutual extensions of 34 days for petitioner and 35
days for respondent. The extensions are necessary because of the heavy press of
business for both lawyers, as well as ongoing challenges related to their virtual work
environments during the ongoing pandemic.
Thank you for your consideration in this matter.
Very truly yours,
ROGERS, MORRIS & GROVER, L.L.P.

Richard A. Morris
cc:

All counsel of record

Austin Office:

(Via Electronic Notification)

5920 W. William Cannon Dr., Bldg. 1, Suite 250

Austin, Texas 78749

Phone: (512) 354-1050

Fax: (512) 354-1049

